<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-234]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-234

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________



                 U.S. GOVERNMENT PUBLISHING OFFICE
99-792                 WASHINGTON: 2016                 
              
________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  
             
              
              
              
              
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 24, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................   301
Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........   302
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....   302
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................   307
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....   307
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   308
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......   309
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...   309
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland   310
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York   311
Booker, Hon. Cory A., U.S. Senator from the State of New Jersey, 
  prepared statement.............................................   314

                               LEGISLATION

Text of S. 1647, the Developing a Reliable and Innovative Vision 
  for the Economy Act............................................     8
Text of the amendment offered by Senators Inhofe, Boxer, Vitter, 
  and Carper.....................................................   278
Text of the amendment No. 1 offered by Senator Fischer...........   288
Text of the amendment No. 1 offered by Senators Gillibrand and 
  Merkley........................................................   291
Text of the amendment No. 2 offered by Senator Whitehouse........   296
Text of the amendment No. 2 offered by Senators Wicker and Booker   300

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JUNE 24, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
406, Dirksen Senate Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Capito, 
Crapo, Boozman, Sessions, Wicker, Fischer, Rounds, Sullivan, 
Carper, Cardin, Sanders, Whitehouse, Merkley, Gillibrand, 
Booker, and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our meeting will come to order.
    Welcome to today's markup. It has been a long time, and we 
have talked about it. We have been down this road before, and 
now it is a reality today.
    As I have said many times, my top priority this year is to 
pass a fiscally responsible, long term highway bill. Ranking 
Member Boxer, Senator Vitter, Senator Carper and I have worked 
hard to put this together. I think they agree also.
    People ask questions. What are you trying to accomplish? We 
want a long term bill. We have gone through the agony of short 
term extensions, and we do not have to do that again. For the 
sake of America, we should not do that again. That is too 
expensive.
    Unfortunately, what used to be the best transportation 
system in the world is now deteriorating. Senator Boxer made 
some comments about her observations in China and some of the 
things that are going on. We are just not in the position we 
were at one time.
    American businesses rely on an efficient and reliable 
transportation network. More than 250 million vehicles traverse 
the highway system each year and businesses require a reliable 
transportation network to operate. However, every day, 20,000 
miles of our highways slow below posted speed limits or 
experience stop-and-go conditions. This type of congestion has 
a huge negative impact on America's businesses.
    The DRIVE Act has several key components that position 
America's transportation system to support our growing economy. 
This bill defines the Federal role to prioritize projects that 
are most in the national interest. This bill creates a new 
freight program that gives American businesses increased access 
to energy production, agriculture, mining and the ports where 
we trade with the rest of the world.
    In order to implement these reforms, we are cutting red 
tape to accelerate project delivery. This is something we have 
successfully done on two other occasions.
    We are carrying that forward again today. This is 
accomplished by improving collaboration, eliminating 
redundancies, and removing barriers that delay the process. We 
are making the NEPA process more efficient so projects can be 
delivered in a timely fashion.
    A solution is urgent, because today we quite literally sit 
at a crossroads. In order to repair deficient bridges, 
eliminate waste, and reduce congestion, Congress must act now 
and pass a long-term bill, the bill we have before us today.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, this is what I call a really 
good day in this committee. I hope it starts a trend in the 
Senate.
    My Chairman, Senator Jim Inhofe, and I have negotiated, 
along with Senators Vitter and Carper, and, I have to say, 
every member on our side and every member on his side, a 
strong, 6-year surface transportation bill, which we are 
calling the DRIVE Act.
    This bill comes not a minute too soon, because we are 38 
days away from the expiration of the current highway program 
extension. Shortly after that, the Highway Trust Fund, which 
funds highways and transit, will go broke.
    We have 61,300 structurally deficient bridges in the U.S., 
and 50 percent of our roads are in less than good condition. 
That is unacceptable. Our transportation systems used to be the 
envy of the world, as my colleague pointed out, but now we lag 
behind.
    States and local governments rely on the Federal Government 
to fund parts of their surface transportation programs. Some 
States depend on Federal resources for 60, 70, 80, 90 and even 
100 percent. Millions of American workers and thousands of 
businesses are relying on us to pass this transportation bill. 
I will go through the highlights for me.
    One is increased funding above current levels, which will 
begin to help us address the Nation's massive backlog. Second 
is a national freight program, which will dedicate billions of 
dollars per year to improving goods movement. It costs 
businesses a fortune when they cannot move their goods in a 
timely way.
    Third is projects of national significance, which will 
target funds to the most deserving mega-projects in the 
country. Fourth is funding for transportation alternatives, to 
continue investing in active transportation projects that 
provide cost-effective transportation alternatives while also 
improving safety, protecting public health, and reducing 
congestion.
    Fifth is a program about which I care deeply, a robust 
TIFIA program that meets the current needs. I would remind 
colleagues that every dollar of TIFIA funding is matched by 30 
or more dollars from private sector and government sources.
    Sixth is a new reform which was actually cheered by my 
colleagues when I explained it to them. I thank you, Mr. 
Chairman, for working so hard on this. This is a new reform 
that allows local sponsors to get funding for their local 
projects directly rather than having to go to the States and 
the State takes off an amount of money for administration.
    When we cooperate and really negotiate, everybody has to 
give up a little. During the negotiations of this bill, in 
order to get the things I just highlighted, there were things I 
had to agree to that were painful for me such as accelerating 
project delivery.
    However, I want to make it clear that the provisions I 
worked on with Senator Inhofe do not undermine current 
environmental health and safety laws. They just speed things up 
so that we can get the job done.
    I have been clear from the start that the Democratic 
conference would like to see an even more robust transportation 
bill given the needs we have. President Obama has introduced 
his idea. I think he calls it the GROW Act.
    We will continue on our side to fight for a more robust 
bill. We believe it is incredible that we have been able to 
come together to get this bill done. We are proud of it, and we 
are proud of our staffs across the aisle.
    I do want to say to my Chairman, this was really a moment 
for us again. We came close to losing the whole thing over the 
weekend, but we never gave up, and we found the compromise we 
needed.
    I want to add something here that I think is important. 
Yesterday, by chance, I had the opportunity to talk to Speaker 
Boehner, who I just ran into in the hallway. He called me, and 
he wanted to talk about this transportation bill.
    Mr. Chairman and members, he told me he strongly supports a 
6-year bill and that he is going to work hard to get it there. 
When I told him of our bipartisan agreement, Mr. Chairman, he 
could not have been more pleased.
    This is really good to have the leaders in the House, I 
know the Democrats feel the same way, if we can all work 
together.
    Yesterday in the House, a TSCA bill passed 398 to 1, what 
an amazing, remarkable thing, to take a bill that was so 
controversial and get it to a place where it could have that 
kind of vote. I hope we can follow the lead on that.
    I thank you so very much.
    [The prepared statement of Senator Boxer follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you, Senator Boxer.
    As a reminder, I think we are all aware that in order to 
pass the legislation, we have to have a quorum of 11 but just 7 
to approve amendments. Right now, we are at 13, nobody leave.
    We will begin considering the text circulated with the 
notice provided to all offices as usual. I will ask if members 
seek recognition on each amendment and allow each member to 
call up their own amendments.
    We can have committee counsel available, which they are 
available and seated now at the table to answer questions 
concerning the legislation and the amendments from the 
committee members. At the conclusion of the member statements 
and questions, we will vote on the amendments and proceed to a 
vote on S. 1647.
    To begin, the Ranking Member, Senator Vitter, Senator 
Carper and I have developed a list of amendments that can be 
agreed to. I would ask that the following amendments be adopted 
en bloc.
    Fischer No. 1 is modified. Gillibrand-Merkley No. 1 is 
modified. Whitehouse No. 2 is modified. Wicker-Booker No. 2 is 
modified. These amendments and modifications were stipulated 
last night, and there is no objection.
    Is there objection?
    Without objection, so ordered.
    [The referenced legislation follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. We will now proceed to amendments. Does any 
Senator seek recognition concerning the bill or to offer 
amendments?
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. First, let me thank you, Chairman, the 
Ranking Member and our two subcommittee Chairs and Ranking 
Members for the work you have done to bring us to this point.
    We have an increase, not as much as many of us would like 
to see, but an increase nevertheless. We have a long term bill 
which we fought very hard for and which we have tried to 
encourage our colleagues to adopt before.
    I appreciate very much my measure related to composite 
technologies has been included by agreement. Thank you for 
that.
    I would like to bring to everyone's attention a piece that 
was left out. I will not call it for a vote here. I will 
continue to work to try to get it into the bill.
    We had a hearing in the Budget Committee just last week. 
There is a new CBO chief who has been selected by the 
Republican majority, who has very good Republican credentials.
    In his testimony, he volunteered that we needed to be 
prepared to address the climate change-related problem of 
storms and sea level rise on our coasts. This is the Republican 
CBO person volunteering that into his pre-filed testimony 
before the Budget Committee.
    I hope we can begin to take seriously what is happening 
along our coastlines. If you go to the tide gauge outside Naval 
Station Newport, it is up 10 inches. That means that coastal 
roads around this country face new and different threats than 
they did when they were built.
    I hope that those of us from coastal States can join 
together to try to seek a program that will help the particular 
threat that coastal roads and infrastructure face as sea levels 
rise and as the storms that batter them against our coasts 
increase in power.
    I look forward to continuing to work with my colleagues on 
that, but I will close where I began which is with my 
appreciation to the Chairman and the Ranking Member for pulling 
this together on what I think is a very important and 
consequential piece of legislation.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Let me assure you that our debate will go on in the future 
on this issue.
    Senator Whitehouse. I have no doubt about that, Mr. 
Chairman.
    Senator Inhofe. Are there others wishing to be heard?
    Senator Wicker. Could I be heard on what Senator Whitehouse 
just said?
    Senator Inhofe. Senator Wicker.
    Senator Wicker. I think this is a very sensible approach. 
Certainly Senator Whitehouse and I have had spirited exchanges 
about the cause of certain things that are going on in the 
environment.
    It seems to me that if you have a 10-inch rise in sea level 
and more water pounding against the roadway, the sensible thing 
to do is exactly what Senator Whitehouse said, make your 
roadway a little higher and compensate for that perhaps with a 
seawall or something like that.
    I think we are a lot more likely as humankind, Mr. 
Chairman, to be able to do that sort of thing than to think 
about taking action that can actually lower the level of sea 
level in that area.
    Thank you very much. It is something that Senator 
Whitehouse and I can agree on.
    Senator Whitehouse. I appreciate Senator Wicker's comments.
    Senator Inhofe. Are there other Senators wishing to be 
heard?
    Senator Sullivan.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    I just want to commend you, the Ranking Member and 
particularly the staffs on the hard work that has gone into 
this legislation.
    The one issue I think there will be, and we are starting to 
see it in this bill and some of the amendments that were agreed 
upon and bipartisan support for, is the whole issue of 
streamlining our permitting system at the Federal level, not 
cutting corners, but recognizing that in many ways, we have a 
Federal permitting system on infrastructure, in particular, 
that is broken.
    We have all heard the different stories of 8 years, on 
average, to permit a bridge. Nobody wants that. In the Commerce 
Committee, we talked about airport infrastructure. We had a 
witness, the manager of the Seattle Airport, who said it took 
15 years to get Federal permitting done to expand a runway.
    I think what we need to focus on, and this legislation 
starts to focus on, is fixing a problem that the vast majority 
of Americans would agree that we cannot have a permitting 
system that takes years and sometimes over a decade to permit 
important infrastructure projects.
    I think this legislation starts to address that. I think it 
is a very important bipartisan accomplishment.
    Thank you.
    Senator Inhofe. Thank you, Senator Sullivan.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Mr. Chairman.
    I just want to congratulate you, Senator Boxer and Senators 
Vitter and Carper, for your very hard work.
    I think, as you indicated, Mr. Chairman, and Senator Boxer, 
as well, it is an international embarrassment when in this 
great country we have an infrastructure which is crumbling. Who 
can defend that?
    Who believes that by not paying attention to it or turning 
our backs on it, that it is going to get better? It is not 
going to get better. It is an expensive proposition, and it is 
one that we have to invest in.
    While this is an excellent start, I am strongly supportive 
of this legislation, but we should understand that according to 
the American Society of Civil Engineers, the guys who know a 
lot about this, we have a long, long way to go beyond this 
legislation.
    Our job is to rebuild our crumbling roads, bridges, water 
systems, wastewater plants, our rail system, our levees and our 
dams. When we do that, as you have indicated, Mr. Chairman, we 
will make America more efficient, safer and more productive.
    At a time when real unemployment is close to 11 percent, we 
are going to create millions of decent paying jobs in areas 
where we really need work to be done.
    Again, I want to congratulate you, Senator Boxer and the 
Ranking Members, for their excellent work on this legislation.
    [The prepared statement of Senator Sanders follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you, Senator Sanders.
    Are there other Senators who want to be heard?
    Senator Markey.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    I want to echo the praise of every other member thanking 
you, Senator Boxer, and Senators Carper and Vitter, for your 
excellent work, working together in partnership and bipartisan 
fashion.
    I would like to thank you for including the language which 
I suggested adding safety to the historic concept of access in 
terms of ensuring that highways are designed with the safety of 
bicyclists and pedestrians also in mind.
    I would like to also thank you for including language about 
transit-oriented development. I think this change toward how we 
view development, ensuring that there is up front financing 
available so that these core centers of development can have 
high anticipation of being able to build out around a transit 
location is very, very important.
    I would also say I have concerns about the change in 
Section 4(f) of the historic site protections. I am not going 
to make an amendment here today, but I do think many across the 
country are going to be concerned about this change in terms of 
the protection of historic sites.
    I am going to attempt to work with the committee between 
now and the floor to see if we cannot find a way of 
accommodating those historic protections.
    Again, congratulations, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman.
    I just want to briefly thank you for your leadership, as 
well as Senator Boxer and Senator Carper. I really enjoyed 
working with all of you on this important bipartisan bill.
    I am glad it is called the DRIVE Act. We talked about a lot 
of important aspects of this issue, economic growth and safety, 
but it is also about relieving congestion, improving people's 
daily lives, letting them spend more time with families. It is 
about all of those things.
    Certainly it is very important to Louisiana, as it is to 
all of your States. Our highway system is 40th in the Nation, 
our interstates are 48th in the Nation, our bridges rank 10th 
in the Nation on the bad end as the most deficient and New 
Orleans and Baton Rouge both rank in the top 25 areas for 
traffic congestion.
    This bill does key things to help with all of those things 
like bundling bridge projects together, making it a lot more 
efficient; a new freight program that will relieve congestion 
in New Orleans and Baton Rouge; prioritizing major projects 
like I-49 and LA-1; improving safety measures; creating 
certainty; and infrastructure investment in rural areas.
    I look forward to passing this out of committee and passing 
it through the Congress, a full 6-year bill. There is no reason 
we cannot do this. There is no reason we cannot do it now if it 
is a priority.
    It is great to hear other leaders like Speaker Boehner 
saying it is a priority. We need to prove it is priority by 
passing this full 6-year bill.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Vitter.
    It is a priority. Let us keep in mind the Constitution is 
still out there. It states these are the two things we are 
supposed to be doing here, defending America and roads and 
bridges.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Again, my thanks to you, Senator Boxer and Senator Vitter.
    I also wanted to take a minute and thank our staffs. We 
have worked hard. You and Senator Boxer worked especially hard, 
but our staffs really knocked themselves out. I just want to 
say to everyone in the room who helped on this, maybe you have 
given us a lot of input, and we appreciate that. Thank you all.
    We are trying to impart a sense of urgency. God knows we 
need to. The pastor at our church sometimes likes to say he 
would rather see a sermon than hear one. Today, we are sort of 
hearing the sermon but we need, as a collective body, to 
actually show the people a sermon on being able to get things 
done.
    One of our favorite colleagues, Lamar Alexander, whom I 
affectionately call LA, and I talked about our days as 
Governors. He talked about transportation and tells this story. 
He used to say when he was Governor, would not say let us raise 
this tax or raise that tax in order to pay for something. He 
would say, here is my vision for what Tennessee could be if we 
were to do this or that in terms of transportation, bring the 
auto industry to expand this business or that business, that 
was the vision.
    The people would say, that is a great vision, we love that 
vision, but how are we going to pay for it. He would say, 
first, let us agree on the vision, and then we go to work and 
figure out how to pay for it.
    Today, I think we are presenting a very appealing, 
attractive and encouraging vision. The next challenge is to 
figure out how to pay for it. I know we all have different 
ideas of how to do that.
    One of the ideas I think I talked to just about everyone on 
this committee, everyone on the Finance Committee and a lot of 
people on the Ways and Means Committee, and said what is your 
idea of how to pay for this stuff. There were a lot of ideas, 
some good, some very good. One of the ideas I consistently 
heard was there has to be a way to fix the bill to fix roads, 
highways, bridges, and transit systems in a more cost effective 
way. There has to be a way to do that.
    I just want to commend, especially the folks, the leaders 
on our committee, who really tried to find more cost effective 
ways. Time is money, and we sought to find ways to save some 
time and hopefully to save some money.
    I will close with this. Another one of my pastors back in 
Wilmington, Delaware, likes to say, it is not so important how 
high we jump in church that counts, it is what we do when our 
feet hit the ground.
    We are in church today and we are jumping up high. The 
important thing is what we do when we hit the ground in the 
Finance Committee, the Ways and Means Committee and those other 
places. Hopefully, we will do the Lord's work and the peoples' 
work at that time.
    God bless you all. Amen. Church is over.
    Senator Inhofe. Those were great observations. I agree with 
that. Let us keep in mind though we have a couple other 
committees that have a lesser role but a similar role. Our job 
is exactly what we are doing today. That is why we should be 
focused on what we are focused on. I think we will get it done.
    Are there others who want to be heard?
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    You and Senator Boxer have done an excellent job. I know 
the commitment you both have to improving our highway program 
and our infrastructure.
    Senator Carper, I remember in our church, speaking of 
churches, Mr. L.W. Brown would lay out this great vision, and 
the treasurer, Mr. George Harster, would say, how are we going 
to pay for it? I think you made a very important point.
    The way I look at the numbers at first glance, it appears, 
Mr. Chairman, this is a very frugal budget. We talk about 
numbers that do not increase a lot over the next 6 years. We do 
have a plan that would add $2 billion for the freight 
transportation system but when you think about it, that is a 5 
percent increase in a $40 billion to $50 billion budget. Then 
there is some cost of living that we may see in there.
    I just saw Senator Hatch in the hallway as I walked over. I 
said, are you going to find our money? He said, yes. Maybe we 
can relax.
    I do think we need to watch and be responsible because 
every committee, whether you have the National Institutes of 
Health, the Defense Department, Education, you want more money 
for your goal, and we all do. If we will stay responsible in 
our spending and get legitimate pay-fors, I believe we can 
shift some money to priorities. I do believe our infrastructure 
is a priority.
    Thank you for your leadership.
    Senator Inhofe. Thank you.
    Are there other Senators who wish to be heard?
    Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Senator Carper, when I first joined the 
First Baptist Church in Tupelo, Mississippi in 1982, at the end 
of the service, we would all join hands and sing, There's a 
Sweet, Sweet Spirit in This Place. Maybe we can adjourn by 
doing that.
    I do want to thank the leadership for working with Senator 
Booker and me on several initiatives and for accepting some of 
our proposals. I talked to Senator Booker at breakfast this 
morning, and I know he has conflicts today. I had hoped I could 
save this one matter until he got here.
    Wicker-Booker Amendment No. 1, which I will not offer, 
perhaps he and I will be able to push this through in a vote on 
the floor. Here is what it deals with. Again, I stress I will 
not offer this amendment.
    This Congress used to earmark a small portion of our road 
money for local concerns. This was much appreciated by the 
local officials who cannot afford the roads and streets in 
their own communities. That was controversial, and it was felt 
by many members of the public that this added to the cost of 
the bill, so we have abandoned the process of earmarking funds 
for local concerns.
    Wicker-Booker Amendment No. 1 would set aside 10 percent of 
the money allocated to the States and allow local governments 
to compete in a process set up by the State for those local 
projects, giving the mayors, the county commissioners, and 
boards of supervisors who come to see us at least some hope 
they would have a chance to compete for a small portion of the 
funding that will flow to the States through this Act.
    To me, it has been something I think local officials have 
been very excited about, very hopeful about, and I am sure 
there will be some disappointment that it is not in the 
committee's mark.
    I will reiterate, we are not going to offer it at this 
point, but it is, to me, a worthy suggestion and a worthy 
project not to increase one penny of the spending in this bill, 
but to set aside a small portion to give local counties and 
municipalities some hope they will be able to meet the 
infrastructure needs of their constituents.
    Thank you again.
    Senator Inhofe. Thank you, Senator Wicker.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Mr. Chairman, let me join the others in 
congratulating you and Senator Boxer for reaching this 
bipartisan agreement on a 6-year reauthorization of our Surface 
Transportation Program.
    I have been saying for months, I think most of us have, 
that we needed a 6-year reauthorization. I congratulate you for 
reaching, with Senator Boxer, I think a fair compromise, one 
that I will strongly support. It provides the type of certainty 
that is needed and provides for a modest increase in our 
transportation funds which I think we need to get done, and it 
is bipartisan.
    I want to thank you for the manner in which you have 
handled the transportation alternative programs. Senator 
Cochran and I have worked on this for a long time, and I 
appreciate the fact that you are not only including this 
program that has been included in past authorizations but have 
provided a modest increase in funds and greater local roles.
    The local governments will have an even greater say as to 
how their transportation alternative programs should be 
structured in their own communities because they know best. 
They are the ones who know how they can best handle the 
problems of their own communities.
    I thank you for doing that. I look forward to supporting 
the bill. I intended to offer an amendment in regards to 
transportation alternative programs, but I am not going to 
offer that amendment.
    I will later, when we get to the amendment process 
reiterate the point that, as Senator Sanders said, I would hope 
we could do more. To me, this is an important bill to get done. 
Do not get me wrong, but I would hope that we could get 
additional revenue, which is not this committee, and have a 
more robust transportation commitment at the Federal level.
    I think the Chairman and Ranking Member would both agree if 
the funds are available, we would like to do more. I will give 
a blueprint where I think we could do that as far as 
authorization, if the funds were available.
    Senator Inhofe. Thank you, Senator Cardin.
    Are there other Senators wishing to seek recognition?
    Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman and Madam 
Ranking Member.
    I am very grateful for this bill. I would like to speak on 
an amendment I sponsored with Senator Merkley.
    Our amendment reduces highway maintenance costs for States 
by directing the Secretary of Transportation to use existing 
authorities, programs and funding to encourage and facilitate 
the use of pollinator-friendly vegetation in highway rights-of-
way.
    This is an issue typically discussed in the Agriculture 
Committee because obviously we need our pollinators to have 
fruits and vegetables. There have been some real challenges to 
them most recently with Colony Collapse Disorder.
    This country is actually facing a pollinator crisis. This 
past year, beekeepers reported colony losses at over 40 
percent. This is economically devastating for commercial 
beekeepers, but these losses concern us all.
    In the U.S., the value of insect pollination to agriculture 
is estimated at $16 billion annually. More than 30 percent of 
the food produced in America requires insect pollination. This 
includes apples from New York, plums from Idaho, almonds from 
California, grains and seeds from South Dakota, grapes from 
Oregon and many others.
    The economic cost of bee decline, including lower crop 
yields and increased production costs, has been estimated at 
$5.7 billion per year, a staggering sum that affects our 
States.
    The potential causes of the declining bee population are 
still being debated, parasites, pesticides, farming practices. 
However, it is known that habitat loss is a main contributing 
factor. Pollinators need places to forage, to eat in areas rich 
with pollen and not treated with pesticides. In the U.S., there 
are 17 million acres of rights-of-way next to highways that, if 
managed properly, could provide this much needed area for 
forage.
    Finally and importantly, Mr. Chairman, this amendment saves 
money for States. At least 20 State DOTs, including West 
Virginia, Mississippi, Idaho, Arkansas, and Nebraska currently 
utilize or invest in native and pollinator-friendly roadside 
plantings.
    Pollinator-friendly vegetation management requires less 
frequent mowing, offers lower maintenance costs and better 
control of invasive species, all without affecting road safety. 
One study found that the cost savings from reduced mowing would 
save 25 percent in roadside maintenance.
    This amendment is a simple fix to address a major problem. 
It saves money and is an easy step to save the pollinators that 
are necessary for agriculture in our States. I hope all my 
colleagues support it.
    On another issue, I would like to speak on an amendment but 
withdraw it, Gillibrand Amendment No. 2.
    This amendment would give States the flexibility to use 
funding they receive through the National Highway Performance 
Program for bridge projects that are not on the national 
highway system.
    The Federal Government funded the construction of bridges 
on the Federal-Aid Highway System. We have a responsibility to 
ensure they are properly maintained. States and local 
governments simply do not have the funds necessary to 
adequately repair and reconstruct all of the Federal-aid 
bridges not on the National Highway System and desperately need 
our help.
    In New York, one in three bridges is in need of repairs. It 
would cost $1.8 billion to repair or replace all of them. This 
is not a story unique to my State. States and localities across 
this country lack adequate funding for bridge maintenance. 
According to the American Society of Civil Engineers, one out 
of every nine bridges in the United States is rated 
structurally deficient, meaning that it is in need of repair.
    While I appreciate the set aside in the Surface 
Transportation Program for the non-NHS bridges that was 
included in the bill, the set-aside does not fully solve the 
problem if we only limit funding to 15 percent of existing STP 
allocations.
    By giving States like New York, which have a large number 
of Federal-aid highway bridges that are not on the National 
Highway System with the flexibility this amendment provides, 
States can better prioritize and fund the bridge projects with 
the most need, regardless of their designation on or off the 
National Highway System.
    I will not offer the amendment here in committee, but I 
will offer it on the floor. I hope people will look at it, see 
how it affects their States and whether they can support it.
    My other amendments, Amendment Nos. 3 and 4, I will not 
offer today. However, I will state briefly it is very important 
for my State that we continue to work with local governments to 
develop comprehensive safety policies similar to what New York 
has done with the Vision Zero Program to reduce traffic 
fatalities.
    Additionally, we should also be working to find innovative 
ways to accelerate project delivery for cities like New York 
that have the capacity to work directly with the Federal 
Government to carry out transportation projects.
    I am very grateful for the work of this whole committee. I 
think the bill is very strong, and I look forward to it moving 
to the floor.
    Senator Inhofe. I would remind Senator Gillibrand that we 
did have your Amendment No. 1 as a part of the Manager's 
Amendment which has now been adopted.
    Senator Gillibrand. Thank you all.
    Senator Inhofe. Are there others? I do not want to start 
losing people.
    Senator Boxer. Thirty seconds?
    Senator Inhofe. Thirty seconds.
    Senator Boxer. Thirty seconds.
    I just want to say how happy I am right now after hearing 
from everyone and how rare these moments are. I believe in 
marking good things. I look at Senator Sessions because I was 
nervous about his response, but what he said was absolutely 
true. We have done this to meet the need.
    Yes, there will be struggles over how to pay. Dwight 
Eisenhower said it very well, ``We cannot be a secure Nation if 
we cannot have an infrastructure that works.'' I remember, I 
was a little girl when he did an experiment where he tried to 
get a convoy from the East Coast to the West Coast. It was 
disastrous, and that is what made him realize this one Nation 
under God has to have a good infrastructure system.
    In closing, I would say this. We have to be a team across 
party lines. With all of our concerns, we like to do things a 
little different, let us just work together because I have also 
spoken with Mitch McConnell's staff, and they were very 
encouraging.
    If we have Mitch McConnell encouraged, if we have John 
Boehner encouraged, we have proven we can do this. Let us be 
the strongest, united voice we can be to get this done. We have 
36 days before the Trust Fund goes bust. This is a great day.
    Senator Booker. Mr. Chairman, I know how much you really 
want to hear my prepared remarks.
    Senator Inhofe. I can put them in the record.
    Senator Booker. I am going to deny you that and just put 
them in the record as requested. I am sorry to disappoint my 
fellow Senators.
    I do want to just give some gratitude to Senator Wicker who 
has been a strong partner with me in working to advance some 
critical issues.
    Thank you, sir.
    [The prepared statement of Senator Booker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. He made that statement before he talked 
about yours.
    Seeing no further members wanting to seek recognition or 
offer amendments, I am going to move to accept the underlying 
text.
    Senator Cardin. Mr. Chairman, I wanted to offer an 
amendment. I did not know we were past that stage. I am going 
to offer and withdraw, but I did not realize that was going to 
be precluded. I will only take 30 seconds or maybe 60 seconds.
    I wanted to call up Amendment No. 3, and I will withdraw 
it. This is the Grow America Act which would increase the 6-
year authorization to $478 billion consistent with the 
President's budget. I do that respectful of the strong support 
for the underlying bill. I will withdraw the amendment.
    I serve not only on this committee but the Senate Finance 
Committee. I am going to be part of the process to find the 
revenue necessary. I know there is a bipartisan group that 
believes we can find additional revenue.
    We think through international tax reform, there is an 
opportunity for some permanent and one-time only revenues and 
that infrastructure is critically important to this country. If 
we are going to be able to be globally competitive, able to 
deal with the safety challenges we have in our communities, 
able to deal with the growth needs and able to get places 
without the extreme congestion that exists today, able to do 
all those issues, we need a program that is able to meet those 
needs.
    I think the Grow America Act would do that. I would 
encourage us to keep an open mind if we can get the additional 
revenues for a more robust plan than is currently being 
submitted for approval here.
    With that, Mr. Chairman, I would ask consent to withdraw 
the amendment.
    Senator Inhofe. Thank you, Senator Cardin.
    I move to accept S. 1647, as amended and report the 
legislation favorably to the Senate. Is there a second?
    Senator Boxer. Second.
    Senator Inhofe. There is a second. The Clerk will call the 
roll.
    The Clerk. Mr. Barrasso.
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker.
    Senator Booker. Aye.
    The Clerk. Mr. Boozman.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Boxer.
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey.
    Senator Markey. Aye.
    The Clerk. Mr. Merkley.
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Sanders. Aye.
    The Clerk. Mr. Sessions.
    Senator Sessions. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Vitter.
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Inhofe. Aye.
    Senator Boozman. Mr. Chairman, Mr. Boozman votes aye.
    Senator Inhofe. Senator Boozman votes aye in person.
    The Clerk. Mr. Chairman, the yeas are 20, and the nays are 
0.
    Senator Inhofe. The bill passes.
    I want to thank everyone for a good turnout this morning. I 
appreciate you.
    I want to get one more motion in here. I ask unanimous 
consent that staff have the authority to make technical and 
conforming changes to the measure approved today.
    Senator Whitehouse. Mr. Chairman, I did not want to hold 
anyone while the vote was pending, but I do want to also 
particularly thank everyone for their support for what had been 
known as the Projects of National Regional Significance. It is 
now known as the AMP Project for big things because there are a 
lot of big projects that need to be done. I think this will 
allow that to happen. It is a very significant piece of the 
bill. I thank all of our leaders for making sure that was 
included.
    Senator Inhofe. We have no more. We are adjourned.
    [Whereupon, at 10:14 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
